January 28, 2010

VINCENT H. DEVITO, JR.
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Fiscal Year 2009 Postal Service Financial Statements Audit
         – St. Louis Information Technology and Accounting Service Center
         (Report Number FT-AR-10-006)

This report presents the results of our audit of selected financial activities and
accounting records at the U.S. Postal Service Information Technology and Accounting
Service Center (IT/ASC) in St. Louis, MO, for the fiscal year (FY) ended September 30,
2009 (Project Number 09BM004FT000). The Postal Reorganization Act of 1970, as
amended, requires annual audits of the Postal Service’s financial statements. We
conducted this audit in support of the independent public accounting firm’s (IPA) overall
audit opinion on the Postal Service’s financial statements.1 This audit addressed
financial risk. See Appendix A for additional information about this audit.

Conclusion

During our audit of the St. Louis IT/ASC, we noted that:

   Financial accounting policies and procedures provided for an adequate internal
    control structure and complied with accounting principles generally accepted in the
    U.S.

   Accounting transactions at the St. Louis IT/ASC impacting the general ledger
    account balances were stated in accordance with accounting principles generally
    accepted in the U.S.

   General ledger account balances conformed to the general classification of accounts
    on a basis consistent with that of the previous year.

   The Postal Service complied with laws and regulations that have a direct and
    material effect on the financial statements taken as a whole.

1
 The IPA maintains overall responsibility for testing and review of significant St. Louis IT/ASC accounts and
processes. The U.S. Postal Service Office of Inspector General (OIG) coordinated audit work to assist the IPA to
ensure adequate coverage.
Fiscal Year 2009 Postal Service Financial Statements Audit –                                           FT-AR-10-006
 St. Louis Information Technology and Accounting Service Center



We did not propose any adjustments, but we did identify control deficiencies2 regarding
travel expense claims, lease payments, international mail, and money orders.3 These
items were not significant to the financial statements and did not affect the overall
adequacy of internal controls. The IPA identified additional control deficiencies
regarding the St. Louis IT/ASC that were not in the scope of our review and are not
reported here, including accounting policy for real property and leases and international
mail transactions. These were were communicated to the Board of Governors (Board)
Audit and Finance Committee on November 11, 2009.

Travel Expense Claims

Postal Service employees did not always accurately complete their travel expense
reports or include required documentation. Specifically, we identified 18 errors from our
sample of 90 expense reports approved in Quarter 2, FY 2009. These errors occurred
because Postal Service employees were not always aware of the requirements, the
existing requirements were vague, or employees made manual errors when completing
their expense reports.

As a result, the Postal Service reimbursed employees for incorrect or unsupported
travel expense amounts and recorded travel expenses in the incorrect accounting
month. Specifically, the Postal Service overpaid two employees a total of $3,947. In
addition, if one of these erroneous payments had gone undetected, we project
overpayments totaling $7,575 over a 2-year period would have occurred. We consider
the $3,947 in monetary impact as recoverable questioned cost4 and $7,575 as funds put
to better use.5

Based on our audit, management took action to obtain reimbursement from affected
employees. In addition, management conducted training on travel expense report
preparation and approval requirements. Further, management is revising Postal
Service Handbook F-15, Travel Regulations, and will also revise the eTravel system to
clarify and strengthen requirements and improve manual and system controls.
Therefore, we are not making recommendations at this time but will continue to monitor
this issue as part of our ongoing financial statements audit work. See Appendix B for
our detailed analysis of this topic.


2
  A control deficiency exists when the design or operation of a control does not allow management or employees, in
the normal course of performing their assigned functions, to prevent, or detect and correct misstatements on a timely
basis.
3
  See Appendix D for details of control deficiencies regarding Los Angeles International Service Center inbound
international mail and money orders that were reported to management through interim reports. Regarding
international mail, the IPA relies on the OIG to test controls at a field site to help ensure international mail
transactions were accurate and properly supported.
4
  Costs that are unnecessary, unreasonable, or an alleged violation of laws or regulations. We used actual amounts
per travel expense reports.
5
  Funds the Postal Service could use more efficiently by implementing recommended actions. We calculated the
future overpayment for the traveler on detail in FY 2009 based on the FY 2009 amount of overpayment.




                                                          2
Fiscal Year 2009 Postal Service Financial Statements Audit –                                         FT-AR-10-006
 St. Louis Information Technology and Accounting Service Center


Lease Payments

The Postal Service made duplicate payments for two property lease contracts.6 We
identified these duplicate payments in our review of February 2009 rent payments to
private landlords. These duplicate payments occurred because employees at the
respective facilities services offices (FSO) made manual errors when processing
payment schedules. As a result, the Postal Service made duplicate payments totaling
$45,142. In addition, if these erroneous payments had gone undetected, we project
overpayments totaling $67,258 over 7-month and 2-year periods, respectively, would
have occurred. We consider the $45,142 as monetary impact, recoverable questioned
costs, and the $67,258 as funds put to better use.

During the course of our audit, the Postal Service took corrective action to stop the
duplicate payments and collect the overpayment. In addition, the Postal Service
initiated corrective action to strengthen both manual and system controls to prevent and
detect duplicate payments. See Appendix B for our detailed analysis of this topic.

Based on corrective actions taken or planned, we are not making recommendations at
this time but will monitor this issue as part of our ongoing financial statements audit
work.

Audit Observation

During our audit, we found that supporting documentation for Postal Service (PS)
Forms 3131, Standard Reconciliation of Accounts, contained the names and social
security numbers of two employees. Federal law and Postal Service regulations and
policy prohibit the disclosure of personally identifiable information from a system of
records without the written consent of the subject individual unless the disclosure is
pursuant to one of 12 statutory exceptions.7

Managers indicated that the social security numbers were not needed to support the
reconciliation of accounts and were inadvertently included. The inclusion of personally
identifying information in records can cause an unwarranted invasion of personal
privacy. During our audit, management removed the social security numbers from the
supporting documentation.




6
  We judgmentally selected February 2009 for review and used the Audit Command Language (ACL) tool to identify
duplicate lease payments from the universe of 27,926 transactions. We identified 311 lease payment records (for 88
leases) as potential duplicate payments. Based on our review, two of the 311 records were actual duplicate
payments related to two leases. As of September 2009 , the Postal Service leased over 24,500 facilities with annual
rents totaling over $1 billion.
7
  5 United States Code (U.S.C.) 552a; and Handbook AS-353, Guide to Privacy, the Freedom of Information Act and
Records Management, dated September 2005, updated with Postal Bulletin revisions through September 11, 2008.




                                                         3
Fiscal Year 2009 Postal Service Financial Statements Audit –               FT-AR-10-006
 St. Louis Information Technology and Accounting Service Center


Progress on Prior Years’ Recommendations

We followed up on recommendations concerning international mail, highway extra trips,
rail service claim payments, Transportation Contract Support System (TCSS) access at
the Capital Metro Distribution Network Office (DNO), contract postal unit (CPU)
bonding, CPU payments, and travel expense claims from prior years’ financial
statement audits at the St. Louis IT/ASC. See Appendix E for a description of
previously reported issues and the progress the Postal Service has made in addressing
the recommendations.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Tom A. Samra
    Ujwala R. Tamaskar
    Steven R. Phelps
    Jean D. Parris
    Edward L. Brown
    Sally K. Haring




                                                   4
Fiscal Year 2009 Postal Service Financial Statements Audit –                                             FT-AR-10-006
 St. Louis Information Technology and Accounting Service Center


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The St. Louis IT/ASC is one of three ASCs Postal Service-wide.8 It is responsible for
accounting functions related to money orders, real property, transportation, international
mail, and accounts payable.9 The facility is also responsible for processing financial
and accountability data from field units.

We have issued separate financial statement audit reports for headquarters and the
Eagan, MN, IT/ASC and will issue a separate report for the San Mateo, CA, IT/ASC.
Further, in addition to the overall opinion on the Postal Service’s financial statements,
the IPA, contracted by the Board to express an opinion on the financial statements,
issued a separate report on the Postal Service’s internal controls and compliance with
laws and regulations.10 The OIG will also issue a separate report for the audit of the
FY 2009 information system controls at the Eagan, San Mateo, and St. Louis IT/ASCs
and the Raleigh, NC, Information Technology Service Center.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine whether:11

   Financial accounting policies and procedures provide for an adequate internal
    control structure and comply with accounting principles generally accepted in the
    U.S.

   Accounting transactions at the St. Louis IT/ASC impacting the general ledger
    account balances for assets, liabilities, equity, income, and expenses of the Postal
    Service are fairly stated in accordance with accounting principles generally accepted
    in the U.S.

   General ledger account balances conform to the general classification of accounts of
    the Postal Service on a basis consistent with that of the previous year.

   The Postal Service complies with laws and regulations that have a material and
    direct effect on the financial statements as a whole.

As part of our audit, we assessed internal controls, tested transactions, and verified
account balances. We conducted this audit from November 2008 through January 2010
8
  Other ASCs are located in Eagan, MN, and San Mateo, CA.
9
  Includes accounting for rents and leases, contract stations, vehicle hire, uniform allowance, indemnity claims, tort
claims, and eTravel.
10
   In addition to work performed by the IPA, these reports encompass work performed by the OIG at Headquarters,
the three IT/ASCs, field sites, and the Raleigh, NC, Information Technology Service Center.
11
   The IPA maintains overall responsibility for testing and review of significant St. Louis IT/ASC accounts and
processes. The OIG coordinated audit work to assist the IPA ensure adequate coverage.




                                                           5
Fiscal Year 2009 Postal Service Financial Statements Audit –                    FT-AR-10-006
 St. Louis Information Technology and Accounting Service Center


in accordance with the standards of the Public Company Accounting Oversight Board
(PCAOB) (United States) and the standards applicable to financial audits contained in
the Comptroller General of the United States’ Government Auditing Standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to limit audit risk to a low level that is, in our professional judgment,
appropriate for supporting the overall audit opinion on the financial statements. Those
standards also require considering the results of previous engagements and following
up on known significant findings and recommendations that directly relate to the
objectives of the audit. An audit also includes obtaining a sufficient understanding of
internal control to plan the audit and to determine the nature, timing, and extent of audit
procedures to be performed. We believe the evidence obtained provides a reasonable
basis for our conclusion and observations based on our audit objectives.

We supported the external auditors in obtaining reasonable assurance about whether
the financial statements are free of material misstatement (whether caused by error or
fraud). Absolute assurance is not attainable because of the nature of audit evidence
and the characteristics of fraud. Therefore, an audit conducted in accordance with
PCAOB and Government Auditing Standards may not detect a material misstatement.
However, external auditors and the OIG are responsible for ensuring that appropriate
Postal Service officials are aware of any significant deficiencies that come to our
attention. We discussed our observations and conclusions with management on
December 18, 2009, and included their comments where appropriate.

We relied on computer-generated data from several Postal Service financial systems,
including:

      Accounting Data Mart
      electronic Facilities Management System (eFMS)
      eTravel
      Logistic Contract Management System
      Money Order Database
      Money Order Inquiry System (MOIS)
      Oracle Accounts Payable12
      Retek Merchandising System
      Settlement Management System
      Surface Air Management System
      Surface Air Support System
      TCSS

We performed specific internal control and transaction tests on these systems’ data to
include tracing selected financial information to supporting source records. For
example, we verified that payment authorizations supported payments recorded in the


12
     Formerly referred to as Accounts Payable Excellence.




                                                            6
      Fiscal Year 2009 Postal Service Financial Statements Audit –                                                FT-AR-10-006
       St. Louis Information Technology and Accounting Service Center


      eFMS and that the Postal Service applied the amounts to the appropriate general ledger
      accounts.

      PRIOR AUDIT COVERAGE

                                                Final
                           Report              Report           Monetary
  Report Title             Number               Date             Impact                         Report Results
New York                FT-AR-08-005          1/24/2008       $13,700,604         Volume data used to bill FPAs for inbound
International                                                                     Express Mail® and letter class service was
                                                                                                        13
Service Center –                                                                  not always accurate. Two significant
Inbound                                                                           recommendations regarding policies and
International Mail                                                                procedures to document the complete
                                                                                  processing and billing cycle for inbound
                                                                                  international mail and controls to ensure
                                                                                  correct billing of FPAs for all valid dispatches
                                                                                  remain open.




Fiscal Year 2007        FT-AR-08-010          3/31/2008                $6,644     A significant deficiency existed with
Postal Service                                                                    international issues.14 In addition, we
Financial                                                                         identified control deficiencies regarding extra
Statement                                                                         highway trips, transportation systems’
Audit – St. Louis                                                                 access, eTravel claims, CPU payments, and
Information                                                                       property transactions. One significant
Technology and                                                                    recommendation to modify policies and
Accounting                                                                        procedures to include destination facility
Service Center                                                                    validation in the extra highway trips payment
                                                                                  process remains open.
Los Angeles             FT-AR-10-001         10/13/2009            $163,000       Volume data used to bill FPAs for inbound
International                                                                     international letter post, Parcel Post®, and
Service Center –                                                                  Express Mail service was not always
Inbound                                                                           accurate and properly supported.15 One
International Mail                                                                significant recommendation to finalize and
                                                                                  communicate international service center
                                                                                  standard records unit procedures was
                                                                                  closed at report issuance. The other
                                                                                  significant recommendation to expedite
                                                                                  approved system change requests
                                                                                  pertaining to the International Reconciliation
                                                                                  System remains open.




      13
         Express Mail is a trademark of the Postal Service.
      14
         Ernst and Young, LLP, the independent public accounting firm contracted to opine on the Postal Service’s financial
      statements, reported this as a significant deficiency in its Report on Internal Control Over Financial Reporting and on
      Compliance and Other Matters Based on an Audit of Financial Statements Performed in Accordance with
      Government Auditing Standards (dated November 14, 2007). A significant deficiency is a control deficiency or
      combination of control deficiencies that adversely affects the entity’s ability to initiate, authorize, record, process, or
      report financial data reliably in accordance with generally accepted accounting principles such that there is more than
      a remote likelihood that a misstatement of the entity’s financial statements that is more than inconsequential will not
      be prevented or detected by the entity’s internal control. The significant deficiency was re-classified as a control
      deficiency in FY 2008.
      15
         Parcel Post is a trademark of the Postal Service.




                                                                   7
Fiscal Year 2009 Postal Service Financial Statements Audit –                                             FT-AR-10-006
 St. Louis Information Technology and Accounting Service Center


                                 APPENDIX B: DETAILED ANALYSIS

Travel Expense Claims

Postal Service employees did not always accurately complete their travel expense
reports or include required documentation. Specifically, we identified 18 errors as
follows:16

    Four travel expense reports had incorrect expense amounts.17

    Four travel expense reports were not submitted timely.18

    Five travel expense reports represented travel expenses accumulated over an
     extended period of time.19

    Two travel expense reports were filed and paid prior to completion of travel and
     included per diem charges.

    Three travel expense reports had either an incorrect lease agreement attached20 or
     none at all.

These errors occurred because employees were not always aware of the requirements,
the existing requirements were vague, or employees made manual errors when
preparing their travel expense reports.

Postal Service Handbook F-1521 outlines travel reimbursement requirements for Postal
Service employees on official business travel. It states that employees must:

    Claim reimbursement only for allowable expenses.

    Submit the eTravel expense report as soon as possible after completing travel but
     not later than the end of the accounting month in which travel was completed.

    Attach required receipts per the eTravel summary expense report and send the
     report and receipts to the St. Louis ASC for processing.
16
   We reviewed 90 expense reports representing the highest dollar amounts paid for travel expenses for Quarter 2,
FY 2009. Some of the expense reports had more than one error. We excluded the Board of Governors travel
expense reports from our sample, as we perform a separate audit of their travel and miscellaneous expenses.
17
   Two travelers filed three separate expense reports using an incorrect per diem location. Another traveler included
personal expenses from the hotel bill.
18
   The OIG considers travel expense reports submitted more than 30 days after completion of travel not timely. The
four reports were submitted 61, 62, 80, and 316 days after completion of travel.
19
   One of these expense reports was for travel over a 10-month period.
20
   In one instance, the traveler attached the incorrect lease and, in another instance, the traveler attached a receipt
for rent payment rather than the required lease.
21
   The online version of Handbook F-15, published February 2004, is updated with Postal Bulletin revisions through
December 20, 2007.




                                                           8
Fiscal Year 2009 Postal Service Financial Statements Audit –                                       FT-AR-10-006
 St. Louis Information Technology and Accounting Service Center



Postal Service policy also allows for pre-payment of certain expenses (for example, first
and last month rental costs) but does not allow pre-payment of per diem expenses.

As a result, the Postal Service reimbursed employees for incorrect or unsupported
travel expense amounts and recorded travel expenses in the incorrect accounting
month. Specifically, the Postal Service overpaid two employees a total of $3,947. In
addition, if one of these erroneous payments had gone undetected, we project
overpayments totaling $7,575 over a 2-year period would have occurred.22 We consider
the $3,947 as monetary impact, recoverable questioned costs; and the $7,575 as funds
put to better use. See Appendix C for calculations of monetary impact.

Based on our audit, management initiated corrective action to obtain reimbursement
from affected employees and improve manual and system controls. For example,
management is revising Handbook F-15 to require travelers with government travel
cards to use the cards for certain expenses and will subsequently revise eTravel upon
implementation of this policy change. In addition, management provided formal training
to all area finance managers on travel expense report preparation and approval
requirements.

Lease Payments

The Postal Service made duplicate payments for two property lease contracts.
Specifically, we identified one landlord who received both electronic fund transfer (EFT)
and manual payments by check for 5 months beginning in January 2009. The amount
of overpayments totaled $36,042. We also identified two parties that received lease
payments for the same property over a period of 13 months, for a total overpayment of
$9,100.

Both duplicate payments were caused by manual errors of employees at the respective
FSOs. Specifically, the first error occurred because an employee input an incorrect stop
date in the eFMS when the landlord converted to EFT from manual monthly payments.
The second error occurred because an employee did not put a stop date in the eFMS
following a change in payee.

Internal control standards and best practices specify that control activities, including
application controls, must ensure the proper execution and accurate recording of
financial transactions.23

As a result, the Postal Service made duplicate payments totaling $45,142. In addition, if
these payments had gone undetected, we project overpayments totaling $67,258 over

22
  This erroneous payment related to an individual on indefinite travel status.
23
  Standards for Internal Control in the Federal Government (U.S. Government Accountability Office, November 1,
1999); Internal Controls Over Financial Reporting-Guidance for Smaller Public Companies (The Committee of
Sponsoring Organizations of the Treadway Commission, Volumes II and III).




                                                        9
Fiscal Year 2009 Postal Service Financial Statements Audit –              FT-AR-10-006
 St. Louis Information Technology and Accounting Service Center


7-month and 2-year periods, respectively, would have occurred. We consider the
$45,142 as monetary impact, recoverable questioned costs; and the $67,258 as funds
put to better use. See Appendix C for calculations of monetary impact.

During the course of our audit, management initiated action to stop the duplicate
payments and collect the overpayment. In addition, management initiated action to
improve manual and system controls to prevent and detect duplicate payments. For
example, an update to the eFMS warns users of overlapping lease dates, and
management now signs an eFMS report to indicate periodic review of potential
duplicate payments.




                                                  10
Fiscal Year 2009 Postal Service Financial Statements Audit –                                         FT-AR-10-006
 St. Louis Information Technology and Accounting Service Center


                                APPENDIX C: MONETARY IMPACTS

 We calculated overpayments related to eTravel claims and lease payments as follows:

                                    Recoverable Questioned Costs
               Traveler      eTravel Claims Calculation                               Amount
                  1     October 2008 through September                                 $3,788*25
                        2009 difference in per diem rate:
                        Austin, TX ($54 per day) versus
                        Fredericksburg, TX ($39 per day)24
                  2     Personal expenses claimed on hotel                                    $159
                        bill

                             Total                                                          $3,947

                 Lease           Lease Payment Calculation                            Amount
                   1         January through May 2009:                                 $36,042*
                             5 months X $7,208.33 per month
                    2        May 2008 through May 2009:                                     $9,100
                             13 months X $700.00 per month

                             Total                                                        $45,142
              *Rounded

                                        Funds Put To Better Use

               Traveler      eTravel Claims Calculation                               Amount
                  1     2 years X $3,788*                                               $ 7,575

                 Lease           Lease Payment Calculation                            Amount*
                   1         7 months X $7,208.33 per month                            $ 50,458
                   2         24 months X $700.00 per month                               16,800

                             Total                                                      $67,25826
              *Rounded




24
   Traveler filed two expense reports during Quarter 2 plus 13 more throughout FY 2009 to the same location.
25
   This amount represents the difference between the total per diem expenses claimed at the Austin, TX, rate for 260
travel days ($13,635) and the total per diem expenses at the standard per diem rate for Fredericksburg, TX ($9,847),
which should have been claimed.
26
   Lease 1 was scheduled for termination December 2009 and payment was stopped in May 2009 as a result of our
audit. We calculated 7 months of potential overpayments (June – December 2009). Lease 2 was scheduled for
termination June 20, 2013, and payment was stopped in May 2009 as a result of our audit. The OIG’s policy is to
carry out potential overpayments for a maximum of 24 months.




                                                        11
Fiscal Year 2009 Postal Service Financial Statements Audit –                                       FT-AR-10-006
 St. Louis Information Technology and Accounting Service Center


                                 APPENDIX D: INTERIM FINDINGS

During our audit, we identified and reported the following issues to management
through interim reports.

Los Angeles International Service Center – Inbound International Mail27

Volume data used to bill FPAs for inbound international letter post, Parcel Post, and
Express Mail service was not always accurate and properly supported. Specifically,
proper source documentation was not always available and weights and piece counts
were not always correct. These errors resulted from both manual and system issues.

We made significant recommendations to management to finalize and communicate
procedures for international record unit personnel to follow when validating dispatches
in the International Reconciliation System. Management completed this action on
September 29, 2009. We also recommended management expedite approved system
change requests to enable the International Reconciliation System to reconcile data and
provide valid dispatch-level data for billing. Although management advised this change
was ready for system testing on October 1, 2009, the deployment date depends on
Foreign Post Settlement System implementation, which was targeted for
January 1, 2010, but is still in the implementation process as of this report date.
Management also concurred with all of our remaining recommendations not considered
significant.

Controls Over Money Orders28

Based on our review of money order processes at the St. Louis Accounting Service
Center (ASC), we found that controls over replacement checks, account reconciliations,
and escheatment29 needed improvement. Until improvements are made, there is an
increased risk the Postal Service could issue improper money order replacement
checks or misstate account balances. Further, we project the Postal Service issued
$367,550 in money order replacement checks supported by incomplete forms during the
period reviewed. Finally, money order balances were overstated by $165,166 due to
money orders not escheated as appropriate; however, this amount is a very small
percentage of the total money orders outstanding.

With regard to replacement checks, we recommended management coordinate with
St. Louis ASC personnel to reconcile the differences between Postal Service policy and
MOIS programming and revise policy for completing PS Forms 6401, Money Order
Inquiry, accordingly. We also recommended management communicate the updated

27
   Los Angeles International Service Center – Inbound International Mail (Report Number FT-AR-10-001, dated
October 13, 2009).
28
   Controls Over Money Orders (Report Number FT-AR-10-DRAFT, dated December 16, 2009).
29
   This is the monthly process of recording money orders outstanding for more than 2 years as miscellaneous
revenue and removing them from the Outstanding Money Order Liability Account in the subsidiary ledger.




                                                       12
Fiscal Year 2009 Postal Service Financial Statements Audit –                 FT-AR-10-006
 St. Louis Information Technology and Accounting Service Center


policy for PS Form 6401 completion to appropriate field personnel and initiate a system
change request (SCR) for system edit(s) as necessary based on policy updates. For
the account reconciliation, upon approval, we recommended management implement
the SCR to eliminate the need for the manual calculation (Account Identifier Code 641
reconciling item) and continue to research and resolve the remaining unreconciled
difference in the Outstanding Money Order Liability Account. Finally, in regard to
escheatment, we recommended that management use the newly acquired data
analytics tool to review the detailed money order data at least annually to ensure money
orders are properly escheated, and escheat those money orders identified in our audit
that are still outstanding after 2 years and meet applicable business rules.




                                                  13
Fiscal Year 2009 Postal Service Financial Statements Audit –                                        FT-AR-10-006
 St. Louis Information Technology and Accounting Service Center


         APPENDIX E: PROGRESS ON PRIOR YEARS’ RECOMMENDATIONS

New York International Service Center – Inbound International Mail30

Volume data used to bill FPAs for inbound air Parcel Post mail at the New York ISC was
accurate. However, volume data used to bill FPAs for inbound Express Mail and letter
class service was not always accurate. In response to our recommendations,
management planned to establish policies and procedures to address billing inbound
international mail and communicate those policies with relevant parties 3 months after
implementing new settlement systems. Implementation of the new settlement system
was scheduled for January 1, 2010. However, it is still in the implementation process as
of the date of this report. Further management agreed to establish controls to ensure
they bill FPAs correctly for valid dispatches, including dispatch numbers used more than
once in a calendar year. Management expects to complete corrective actions by March
2010. We will continue to monitor the Postal Service’s efforts to establish policies and
procedures to address billing inbound international mail and controls to ensure FPAs
are correctly billed for valid dispatches31 as part of our annual financial statements audit
work.

Highway Transportation Extra Trips32

Internal controls over payments made to highway transportation contractors for extra
trips (trips made in addition to those under contract) needed strengthening. The current
payment process did not include validation from the destination facility. Instead, the
originating facility initiated and maintained control of the authorization and certification
forms and submitted certification forms directly to the St. Louis IT/ASC for further
processing. Management advised that even though the destination facility did not verify
the form used for payment, controls required the destination facility to complete its
portion of the form used as support to prepare the payment form. During FY 2009,
management reviewed this payment process as part of the Postal Service’s efforts to
comply with the Sarbanes-Oxley Act. However, information provided in an attempt to
close this recommendation did not include evidence this issue was addressed. We will
continue to monitor this issue as part of our annual financial statements audit.33




30
   New York International Service Center – Inbound International Mail (Report Number FT-AR-08-005, dated
January 24, 2008).
31
   These recommendations are considered significant.
32
   Fiscal Year 2007 Postal Service Financial Statement Audit – St. Louis Information Technology and Accounting
Service Center (Report Number FT-AR-08-010, dated March 31, 2008).
33
   We consider this recommendation significant.




                                                        14
Fiscal Year 2009 Postal Service Financial Statements Audit –                                           FT-AR-10-006
 St. Louis Information Technology and Accounting Service Center


Capital Metro Distribution Network Office34

Highway transportation payment information entered into TCSS at the Capital Metro
DNO was properly supported, authorized, and accurate. However, key duties and
responsibilities related to contract administration and TCSS system administration were
not appropriately separated for an individual at the Capital Metro DNO. In addition,
although internal controls over Rail Management Information System (RMIS) service
claims processed manually at the Capital Metro DNO improved from the previous audit,
improvement was still needed to ensure RMIS service claim payments made to rail
carriers were properly authorized and recorded and transactions were accurate.

For TCSS, management indicated new procedures that included additional segregation
of duties within TCSS were implemented on April 23, 2009. We were not able to
validate this information as we did not review TCSS system access during the FY 2009
audit; however, we will continue to monitor this issue as part of our annual financial
statements audit.

For RMIS service claim payments, management indicated that they reiterated
appropriate procedures for processing, documenting, and approving RMIS service claim
payments to all appropriate personnel. In addition, management indicated that a review
of all FY 2008 payment packages was completed and no adjustments were determined
to be necessary. Finally, management indicated that they implemented a semi-annual
audit of RMIS service claim packages and the first audit was completed on
April 22, 2009. This audit showed that all payments were processed in accordance with
management instruction and no payment adjustments were necessary. Therefore,
recommendations related to RMIS service claim payments can be closed.

Contract Postal Unit Bonding35

The Postal Service did not have procedures in place to verify CPUs completed the
annual financial examination, maintained a current file of CPU activities, and assessed
the adequacy of bond amounts. In addition, the Postal Service did not have procedures
to monitor the validity of existing bond waivers. Finally, existing procedures did not
provide for establishing and updating oversight tools to monitor the adequacy of bond
amounts.

Management agreed with the recommendations and has taken corrective action to
ensure that bonding requirements are met, waivers are appropriate, and monitoring
tools are current and used. As a result, we closed our recommendations relating to
those areas but will continue to monitor corrective action underway to update monitoring
tools.



34
     Capital Metro Distribution Network Office (Report Number FT-AR-09-008, dated January 30, 2009).
35
     Contract Postal Unit Bonding (Report Number FT-AR-09-005, dated December 10, 2008).




                                                         15
Fiscal Year 2009 Postal Service Financial Statements Audit –                                        FT-AR-10-006
 St. Louis Information Technology and Accounting Service Center


Contract Postal Unit Payments36

The Postal Service did not always terminate CPU firm-fixed contract payments upon
conversion to performance-based contracts. In response to our FY 2007 audit
recommendation, the Postal Service updated notifications of contract conversions to
include the Denver Category Management Center. To further improve controls, the
Postal Service also agreed to create a report in the CPU Technology System to
eliminate duplicate payments for converted contracts. The contract conversion report
was implemented in August 2009. We consider the recommendation closed.

Travel Expense Claims37

We found Postal Service employees did not always accurately complete travel expense
reports in the eTravel system and include required receipts. In addition, St. Louis ASC
personnel processed summary expense reports without verifying the required receipts
were attached to the expense reports.

We recommended management reiterate travel expense report preparation and
approval requirements to all area finance managers and provide training on travel
expense report preparation as appropriate. We also recommended that management
instruct St. Louis ASC personnel to verify that required receipts are attached to
summary expense reports and obtain missing receipts before processing. Management
took corrective action in response to our recommendations. Therefore, we consider the
recommendations closed but will continue to monitor eTravel expense claims in our FY
2010 audit work.




36
   Fiscal Year 2007 Postal Service Financial Statement Audit – St. Louis Information Technology and Accounting
Service Center (Report Number FT-AR-08-010, dated March 30, 2008); and Fiscal Year 2008 Postal Service
Financial Statement Audit – St. Louis Information Technology and Accounting Service Center (Report Number
FT-AR-09-009, dated February 23, 2009).
37
   Fiscal Year 2008 Postal Service Financial Statement Audit – St. Louis Information Technology and Accounting
Service Center (Report Number FT-AR-09-009, dated February 23, 2009).




                                                       16
